Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 EARLY IMPLEMENTATION OF
  THE CONSUMER OPERATED
    AND ORIENTED PLAN
       LOAN PROGRAM




                    Daniel R. Levinson
                     Inspector General

                       July 2013
                     OEI-01-12-00290
EXECUTIVE SUMMARY: EARLY IMPLEMENTATION OF THE CONSUMER
OPERATED AND ORIENTED PLAN LOAN PROGRAM, OEI-01-12-00290

WHY WE DID THIS STUDY

The Patient Protection and Affordable Care Act established a loan program to foster the
creation of nonprofit, consumer-governed health insurance issuers called CO-OPs that
will offer qualified health plans in the individual and small group markets. Goals of the
CO-OP program include promoting integrated care, quality, and efficiency. As of
January 2, 2013, the Centers for Medicare & Medicaid Services (CMS) had awarded
loans totaling $1.98 billion to 24 CO-OPs. The applicants that receive this funding are
new entities that may face financial and operational challenges in a competitive insurance
market. CMS manages the CO-OP program and must implement it in a short time so that
CO-OPs will be ready to enter the market of Affordable Insurance Exchanges—i.e.,
competitive marketplaces for health insurance.

HOW WE DID THIS STUDY

We reviewed applications from the first 18 CO-OPs that were awarded funding. We
interviewed senior staff from these CO-OPs to describe how CO-OPs plan to meet
program requirements and goals, such as consumer governance, integrated care, and
increased quality. We also interviewed CMS staff and reviewed CMS’s documentation
related to oversight of the 18 CO-OPs to assess their progress during the startup phase
and assess CMS’s oversight of the CO-OP program.

WHAT WE FOUND

In their applications, CO-OPs broadly described various ways to meet program
requirements related to consumer governance. CO-OP applications identified primary
care, electronic health data, and outsourcing as the main mechanisms for achieving
integrated care at lower costs while improving quality. Despite challenges, CO-OPs have
made progress toward achieving licensure and met 90 percent of their milestones during
the period of our review. CMS’s oversight strategy includes frequent monitoring and
early intervention to ensure that CO-OPs adhere to program requirements and goals.

WHAT WE CONCLUDE

Although CO-OPs appear to be making progress, at the time of our review they were still
hiring staff, obtaining licensure, and building necessary infrastructure. In addition, the
extent to which any particular CO-OP can achieve program goals depends on a number of
unpredictable factors, such as each State’s Exchange operations, market competition, and
enrollment.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           CO-OP applications broadly described various methods for 

           meeting program requirements related to consumer governance ....7 

           CO-OP applications identified primary care, electronic health 

           data, and outsourcing as main mechanisms for meeting program

           goals .................................................................................................7 

           CO-OPs met 90 percent of their milestones on or ahead of
           schedule..........................................................................................10 

           CO-OPs face tight timeframes, market uncertainty, and other 

           challenges.......................................................................................11

           CMS’s oversight system involves frequent monitoring and early 

           intervention ....................................................................................12 

Conclusion .................................................................................................14 

Appendixes ................................................................................................15 

           A: List of CO-OP Program Loan Recipients as of June 2012 ......15 

           B: List of Additional CO-OPs Funded After June 2012 ...............17 

Acknowledgments......................................................................................18 

                  OBJECTIVES
                  1.	 To describe how Consumer Operated and Oriented Plans (CO-OPs)
                      plan to comply with program requirements and achieve their goals.
                  2.	 To provide an early assessment of CO-OPs’ progress during the startup
                      phase.
                  3.	 To assess the Centers for Medicare & Medicaid Services’ (CMS)
                      strategy for overseeing CO-OPs both during the startup phase and after
                      the launch of the Affordable Insurance Exchanges (Exchanges).

                  BACKGROUND
                  The CO-OP Program
                  The Patient Protection and Affordable Care Act (ACA)1 established a loan
                  program to foster the creation of nonprofit, consumer-governed health
                  insurance issuers called CO-OPs that will offer qualified health plans in
                  the individual and small group markets.2
                  The ACA originally appropriated $6 billion for this program, which was
                  subsequently reduced to $2 billion.3, 4 Although the ACA aimed to
                  establish 1 CO-OP in each State, reduced funding limited the program to
                  24 CO-OPs in 24 States. 5 (See Appendixes A and B for a list of funded
                  CO-OPs). CMS’s Center for Consumer Information and Insurance
                  Oversight (CCIIO) manages this program.
                  In addition to having the goal of improving consumer choice and plan
                  accountability, the CO-OP program seeks to promote integrated models of
                  care and enhance competition in the Exchanges established under the
                  ACA.6, 7 Existing health insurers and other business cooperatives offer
                  models for this approach. But one major barrier to further development of
                  consumer-driven models in the health insurance market has been the

                  1
                    P.L. 111-148 and the Health Care Reconciliation Act of 2010, P.L. 111-152,
                  collectively known as the ACA. 

                  2
                    ACA, § 1322(a)(2). At least two-thirds of the policies issued by a CO-OP must be in

                  the individual and small group markets. 45 CFR § 156.515(c)(1).

                  3
                    Appropriated amounts were reduced from $6 billion to $3.4 billion by the Department 

                  of Defense and Full-Year Continuing Appropriations Act, P.L. 112-10, § 1857, and the 

                  Consolidated Appropriations Act, 2012, P.L. 112-74, §524. 

                  4
                    The American Tax Payer Relief Act of 2012, P.L. 112-240, § 644, rescinded 90 percent 

                  of unobligated funds from the CO-OP program totaling $2.3 billion.

                  5
                    ACA, § 1322(b). 76 Fed. Reg. 77392 (December 13, 2011). 

                  6
                    ACA, § 1311, established the Exchanges administered by a governmental agency or

                  nonprofit organization, through which individuals and small businesses with up to 100

                  employees can purchase qualified health plans.

                  7
                    The ACA uses the term “Exchanges” to refer to competitive marketplaces for insurance. 

                  CMS now uses the term “Marketplaces.”


Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)          1
                  difficulty of obtaining adequate capital for startup costs and meeting State
                  insurance reserve requirements. The CO-OP program is designed to
                  overcome this barrier by providing loans specifically for these activities.8
                  The ACA authorized both loans and grants under the CO-OP program.9
                  CMS has interpreted both funding mechanisms authorized by the ACA as
                  loans because they must be repaid.10, 11 The CO-OP program created two
                  types of loans: startup loans and solvency loans.12 Startup loans assist
                  with the costs associated with establishing CO-OPs, such as office space,
                  computer networks, and staffing. Solvency loans help CO-OPs meet State
                  insurance solvency and reserve requirements.13
                  Applicants for and Recipients of CO-OP Funding
                  The ACA set requirements for applicants that sought CO-OP funding.
                  CMS further interpreted these requirements and issued regulations to set
                  eligibility standards for CO-OP loan applicants.14 To apply for loans under
                  the CO-OP program, an applicant must:
                       	 be organized as a nonprofit member organization and intend to
                          become a CO-OP;
                       	 not have been a health insurer or a related entity (or any 

                          predecessor of either) on July 16, 2009; and 

                       	 not be sponsored by a State or local government.15
                  In addition, an applicant had to fully describe in the application its
                  proposed organizational structure and governance, health insurance plans,
                  and business functions.16 Key portions of the application included a
                  project narrative, a feasibility study, a business plan, and bylaws.
                  Applicants that received CO-OP loans include small business coalitions;
                  physicians, hospitals, and other providers; agricultural organizations;
                  unions; and community-based sponsors.17 CMS awarded funding to
                  applicants that demonstrated a likelihood of market viability and ability to

                  8
                    76 Fed. Reg. 77392 and 77393 (December 13, 2011). 

                  9
                    ACA, § 1322(b)(1)(a) and (b).

                  10
                     76 Fed. Reg. 77392 and 77394 (December 13, 2011). 

                  11
                     ACA, § 1322(b)(3). 

                  12
                     45 CFR § 156.505.

                  13
                     76 Fed. Reg. 77392 and 77394 (December 13, 2011). 

                  14
                     45 CFR § 156.510. The ACA § 1322(b)(4) established a 15-member CO-OP Advisory

                  Board to make recommendations to CCIIO on the design and implementation of the 

                  CO-OP program, including eligibility and operational standards. 

                  15
                     ACA, § 1322(c)(1)-(2); 45 CFR § 156.510(a)-(b).

                  16
                     CO-OP Program Amended Announcement. Loan Funding Opportunity Number

                  00-COO-11-001, December 9, 2011. 

                  17
                     CCIIO Fact Sheet. Accessed at www.cciio.cms.gov on February 21, 2013.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   2
                  repay loans.18 As of December 2012, CMS had awarded loans to less than
                  one-third of CO-OP applicants.19
                  CO-OP Program Requirements and Goals
                  To fulfill the basic requirements of the program, CO-OPs must offer
                  consumer-governed, qualified nonprofit health plans. In addition, CMS
                  identified goals that CO-OPs should achieve to fulfill the intent of the
                  program, such as providing integrated care, quality, and efficiency.20, 21
                  To become a qualified health insurer, the CO-OP must meet all the same
                  requirements as other health insurers in the State.22 When applying for
                  CO-OP funding, an applicant was not required to be incorporated or
                  licensed as an insurance entity, but was required to have a plan for
                  achieving licensure and to be ready to offer qualified health plans in the
                  Exchanges within 3 years of receiving startup loan funds or within 1 year
                  of receiving solvency loan funds.23
                  To become and remain a qualified issuer of health insurance, a CO-OP
                  must continue to meet the program requirements related to consumer
                  governance, the use of its profits, and the types of insurance that it sells.
                  In particular, a CO-OP must have governance that is subject to a majority
                  vote of its members; must have governing documents that incorporate
                  ethics and conflict-of-interest standards; and must operate with a strong
                  consumer focus, including timeliness, responsiveness, and accountability
                  to members.24, 25, 26
                  Loan Disbursement and Repayment
                  After CMS approved each application, it negotiated a loan agreement that
                  included a disbursement schedule. The disbursement schedule outlines
                  key milestones and available solvency loans consistent with the CO-OP’s
                  business plan and program requirements. A CO-OP must notify CMS
                  1 month in advance if it believes that it will be unable to reach any of its


                  18
                     CO-OP Program Amended Announcement. Loan Funding Opportunity Number
                  00-COO-11-001, December 9, 2011. 

                  19
                     Because of funding reductions, CMS did not review applications submitted for the

                  December 31, 2012, deadline. 

                  20
                     76 Fed. Reg. 77393 and 77410 (December 13, 2011). 

                  21
                     The ACA gives priority to CO-OP applicants that encourage provider coordination,

                  such as medical homes or other models that encourage provider collaboration. ACA,

                  § 1322(b)(2)(A)(ii). 

                  22
                     ACA, § 1322(c)(5).

                  23
                     45 CFR § 156.515(c)(3).

                  24
                     Both the statute and regulations use the terms “consumer” and “member.” For 

                  consistency, we will refer to CO-OP members as consumers. ACA, § 1322(c)(3). 

                  25
                     ACA, § 1322(c)(1)(B).

                  26
                     76 Fed. Reg. 77392 and 77401 (December 13, 2011). 


Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)           3
                  milestones. A CO-OP may work with CMS to modify the disbursement
                  schedule and adjust milestones as needed. This enables CMS to ensure
                  that loan money is not disbursed until the CO-OP completes specific
                  tasks.27 CO-OPs must repay startup loans within 5 years of each
                  disbursement and solvency loans within 15 years.28
                  CMS Oversight and Monitoring
                  CMS’s reporting requirements for startup and solvency loans begin as
                  soon as a CO-OP signs a loan agreement and end 10 years after the final
                  repayment.29 After a CO-OP signs a loan agreement and has operated for
                  one full quarter, it must submit reports (quarterly and semiannual reports
                  and quarterly disbursement requests) that describe its progress on financial
                  and operational goals. Each CO-OP also provides CMS with updates on
                  its progress toward milestones through other formal reporting processes.
                  As a CO-OP meets milestones in the loan agreement and submits
                  disbursement requests, CMS disburses successive installments of the
                  startup loan on a quarterly basis.
                  CMS can restrict loan funds if a CO-OP has not met its agreed-upon
                  milestones. In addition, if a CO-OP has not complied with the loan
                  agreement or program requirements, CMS may place it under enhanced
                  oversight and require it to submit and implement a corrective action plan.30

                  METHODOLOGY
                  Scope
                  This study reviews how CO-OPs plan to meet program requirements and
                  goals, such as consumer governance, integrated care, and improved
                  quality. It also assesses CO-OPs’ progress during the startup phase and
                  CMS’s oversight of the CO-OP program. The findings are based on
                  analysis of the first 18 CO-OPs that were awarded funding under the
                  program between February and July 2012.
                  Data Collection and Analysis
                  We used four main data sources to address our study objectives: CO-OP
                  applications, CO-OP funding disbursement forms, CMS’s documentation
                  related to the oversight of the 18 CO-OPs, and interviews with both
                  CO-OP and CMS staff.


                  27
                     CO-OP Program Amended Announcement. Loan Funding Opportunity Number

                  00-COO-11-001, December 9, 2011. 

                  28
                     ACA § 1322(b)(3); 45 CFR § 156.520(b). 45 CFR, § 156.520(c). 

                  29
                     CCIIO, CO-OP Program Amended Announcement. Loan Funding Opportunity

                  Number 00-COO-11-001, December 9, 2011. 

                  30
                     Ibid.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   4
                  CO-OP Applications. To describe how the first 18 CO-OPs plan to meet
                  program goals, we reviewed their applications for loan funding. We noted
                  plans for offering integrated care, quality improvement, and cost controls.
                  We also gathered information about CO-OPs’ governance;
                  conflict-of-interest policies; and business operations (claims processing,
                  customer service, IT support, marketing, and legal services).
                  CO-OP Disbursement Approval Forms. We reviewed disbursement
                  approval forms for each CO-OP to determine the extent to which CO-OPs
                  are meeting milestones. For each CO-OP, we reviewed forms starting
                  with the first quarter after it received its first funding through the third
                  quarter of 2012. We also gathered information about any delayed
                  milestones and CMS’s response.
                  CMS Oversight Documents. We reviewed documentation that CMS uses
                  to track CO-OPs’ progress and CMS’s day-to-day oversight. For example,
                  we reviewed notes from CMS’s telephone meetings with CO-OPs, “issue
                  logs” that documented unforeseen challenges, and emails between
                  CO-OPs and CMS. These documents covered the period from when a
                  CO-OP received its first funding through the third quarter of 2012.
                  Interviews With CO-OPs
                  We interviewed senior staff from the 18 CO-OPs to describe each CO-
                  OP’s background and its status. We also asked about each CO-OP’s
                  financial or operational challenges and its interactions with CMS staff.
                  Interviews With CCIIO staff
                  To assess CMS’s process and expectations for overseeing the CO-OP
                  program, we interviewed six CMS staff members within CCIIO. We
                  asked staff to discuss CMS’s long-term strategy for monitoring CO-OPs,
                  their assessment of CO-OPs’ progress, and any challenges that CMS staff
                  had faced during the startup phase of the program.
                  Limitations
                  Because CMS funded CO-OPs on a rolling basis throughout 2012, this
                  review included only the first 18 CO-OPs funded through the program.
                  We did not assess CMS’s review of the CO-OP applications or their
                  funding decisions. In addition, we did not assess financial viability of the
                  CO-OPs that received funding. An additional OIG report that addresses
                  CMS’s review of applications for CO-OP funding will be forthcoming.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.



Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   5
                  FINDINGS
                  CO-OP applications broadly described various
                  methods for meeting program requirements related to
                  consumer governance
                  As required by the ACA, CO-OP consumers will make up a majority of all
                  CO-OP governing boards. According to the bylaws of CO-OPs in our
                  review, CO-OP governing boards will have between 3 and 21 directors.
                  The percentage of consumer positions on these CO-OP boards will range
                  from 51 percent to 100 percent. CO-OP boards may also reserve board
                  positions for persons with special expertise in areas such as insurance or
                  health care. The boards may have advisory or nonvoting positions as well.
                  Finally, all of the 18 CO-OPs we reviewed had conflict-of-interest and
                  ethics provisions in their bylaws.
                  In addition to having consumer-controlled governing boards, eight
                  CO-OPs proposed other ways to involve consumers in developing
                  products, policies, and procedures. Although they did not spell out the
                  plans in detail, four of these CO-OPs envisioned advisory boards that
                  would represent consumers in various aspects of CO-OP management and
                  health care delivery. For example, three of the four advisory boards would
                  work to identify candidates for the governing board or assist with
                  communication strategies. One CO-OP application generally described an
                  advisory board that would seek input from advocacy groups on care for
                  chronic conditions (e.g., diabetes) or care for the medically underserved
                  population. The other four CO-OPs stated that they plan to empower
                  consumers to participate in their respective management, but they did not
                  offer specifics on those plans.
                  In general, all CO-OP applications described customer service and
                  outreach strategies to ensure consumer responsiveness. Examples of these
                  strategies include tracking interactions with consumers and analyzing
                  outcomes, offering both online and in-person customer service, or text
                  messaging. CO-OPs also described standards for responding to
                  consumers’ complaints timely and using surveys and other data sources to
                  analyze the quality of their services.

                  CO-OP applications identified primary care, electronic
                  health data, and outsourcing as main mechanisms for
                  meeting program goals
                  The CO-OP program goals emphasize integrated care, improved quality,
                  and reduced costs. In their loan applications, CO-OPs identified primary
                  care and electronic health data as the main mechanisms for achieving

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   6
                  these goals. In interviews, CO-OPs acknowledged that it will be
                  challenging to differentiate their plans from others offered on the
                  Exchanges, given that other insurers use these mechanisms as well.
                  CO-OPs plan to use primary care models to integrate care,
                  lower costs, and improve quality
                  Primary care models typically include a primary care physician or group
                  practice as the first point of contact for patients. The physician or group
                  determines a plan of care for patients and coordinates services such as
                  laboratory tests, specialty care, and followup. One primary care model,
                  called a “medical home,” integrates care for patients to improve quality
                  and may include specialized programs for patients with chronic
                  conditions, such as hypertension.31 Our review of CO-OP applications
                  revealed four main features of their planned integrated care: care
                  coordination, disease management, patient behavior modification, and
                  financial incentives for providers. Table 1 shows features of integrated
                  care that CO-OPs proposed in their loan applications. Because CO-OPs
                  are still evolving, their applications did not always include details on their
                  proposed models of integrated care.
                  Table 1: Features of Integrated Care Described in CO-OP Applications

                                      Care Coordination                              Disease Management


                      Contractually requiring physicians to                   Management programs for chronic
                       communicate with one another                             conditions and maternal health
                      “Telehealth” and video systems that enable rural        Intensive primary care management
                       physicians to interface with providers at urban          for patients with multiple complex
                       medical centers                                          conditions
                      Management of care transitions across health            Exclusive provider or medical home
                       care settings (i.e., hospital, home, physician’s         models that require patients to adhere
                       office)                                                  to a treatment plan
                      Provider data sharing from claims, clinical notes,
                       and peer data to develop best practices in care
                       coordination


                                Patient Behavior Modification                    Financial Incentives for Providers


                      Health coaching (e.g., teaching healthy lifestyle       Bonus payments or shared savings for
                       habits)                                                  improving outcomes
                      Wellness programs                                       Provider incentives based on
                      Tracking emergency room use                              achieving measurable outcomes
                      IT systems that track patient behavior                  Bundled payments


                  Source: Office of Inspector General (OIG) analysis of CO-OP applications, 2012.




                  31
                    American Academy of Family Physicians, American Academy of Pediatrics, American
                  College of Physicians, and American Osteopathic Association. Joint Principles of the
                  Patient-Centered Medical Home, 2007. Accessed at www.aafp.org on February 25,
                  2013.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)                      7
                  CO-OPs also envision that primary care models will reduce costs by using
                  less specialty care, preventing disease, and reducing unnecessary services.
                  For example, all of the CO-OPs in our review plan to offer financial
                  incentives, such as shared savings or bundled payments, to primary care
                  providers to keep consumers healthy.32 Five CO-OP applications
                  described programs to monitor consumers with chronic conditions and
                  prevent hospitalization, and nine CO-OPs plan to offer wellness programs.
                  However, because CO-OPs are new entities, they generally do not have
                  existing networks of health care providers. Fifteen CO-OPs in our review
                  will contract with existing provider networks rather than assemble new
                  networks. Such outsourcing may create additional challenges for CO-OPs
                  that want to engage directly with providers and coordinate provider care.
                  CO-OPs reported that they will need to find networks with providers who
                  are aligned with the CO-OPs’ mission to ensure consumer-focused care at
                  competitive reimbursement rates.
                  CO-OPs plan to use electronic health data to control costs and
                  improve quality
                  CO-OP applications described how electronic health data and other
                  information technologies will help control the costs of care by providing
                  data that help physicians choose appropriate treatments and reduce
                  potential medical errors. For example, one CO-OP described a Web-based
                  program that analyzes medical data that physicians can use to create
                  treatment plans for patients with chronic or acute diseases. This program
                  would also help to ensure continuity of care as a patient moves among
                  different care settings and physicians. Another CO-OP described a
                  software program that helps identify providers whose outcomes and
                  cost-effectiveness of care are better than average.
                  CO-OPs also envision that electronic health data will improve health care
                  quality. For example, two CO-OPs plan to analyze medical data to review
                  providers’ interactions with patients and referral patterns to ensure that
                  patients’ needs are being met. Other CO-OPs will use data to supervise
                  medical care and wellness services. Other CO-OPs described using data
                  to develop best practices for health care providers and track patient
                  satisfaction. Because CO-OPs currently do not have patient or physician
                  data to analyze, they will need to build it over time.



                  32
                    American Hospital Association. A bundled payment is a type of reimbursement
                  methodology whereby the fees for multiple providers and services are bundled into a
                  single comprehensive payment that covers all of the services involved in the patient’s
                  care. Bundled Payment: AHA Research Synthesis Report. May 2010. Accessed at
                  www.aha.org on February 25, 2013.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)             8
                  CO-OPs plan to outsource operational functions to reduce
                  costs
                  Almost all CO-OPs described outsourcing as an important cost control
                  strategy. Outsourcing will allow CO-OPs to save money on staffing,
                  training, and technology systems. For example, CO-OPs may contract
                  with vendors that offer the latest technology in billing and claims systems.
                  The cost of building and maintaining such systems would be prohibitive
                  for CO-OPs. Six CO-OPs in our review also plan to use a purchasing
                  council to achieve savings.33

                  CO-OPs met 90 percent of their milestones on or
                  ahead of schedule
                  We evaluated CO-OPs’ progress toward their milestones from February
                  2012 to September 2012. These milestones covered tasks such as
                  achieving licensure, hiring key staff, and contracting with vendors.
                  Milestones are tied to funding disbursement but also represent important
                  steps in the startup process.
                  CO-OPs are achieving licensure
                  CO-OPs reported that they are on track for, or have obtained, insurance
                  licensure. As of June 2013, 19 of the 24 CO-OPs in the program have
                  been issued insurance licenses by their States. However, on May 22,
                  2013, one State denied licensure to a CO-OP.34 CO-OPs told us that the
                  application and approval process for licensure can take 2 to 6 months and
                  requires detailed actuarial and business analyses to ensure that the CO-
                  OPs have adequate financial reserves to pay medical claims. In addition,
                  States may require CO-OPs to revise their bylaws to fit existing insurance
                  designations (e.g., health maintenance organizations, preferred provider
                  organizations) and prove that they have broad networks of providers.
                  CO-OPs have hired key staff
                  CO-OPs have hired personnel to manage operations and established
                  transitional boards of governance. Examples of such personnel include
                  chief executive or chief operating officers as well as administrative staff.
                  Chief executives may serve as members of the transitional governance
                  board until CO-OPs have enough members to hold elections for a

                  33
                     Purchasing councils allow CO-OPs to enter into collective purchasing arrangements for
                  items and services that increase administrative and other cost efficiencies, including
                  claims administration, administrative services, health information technology, and
                  actuarial services. 76 Fed. Reg. 77392 and 77394 (December 13, 2011).
                  34
                     Vermont Department of Financial Regulation, Vermont Health CO-OP Fails State
                  Insurance Standards. May 22, 2013. Accessed at www.dfr.vermont.gov on
                  May 29, 2013.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)          9
                  permanent board of directors. Executives and other staff are responsible
                  for recruiting and training additional staff, writing operational policies and
                  procedures, and contracting with outside vendors.
                  CO-OPs have contracted with vendors for essential operations
                  All CO-OPs in our review plan to rely on outside contractors to perform
                  certain business functions, such as customer service, IT support, legal
                  functions, or claims processing. Fourteen of the CO-OPs in our review
                  plan to outsource their customer service functions, and 16 CO-OPs plan to
                  use a contractor for claims processing. CO-OPs also reported that they
                  cannot hire and train sufficient staff quickly enough to perform all
                  business functions.

                  CO-OPs face tight timeframes, market uncertainty, and
                  other challenges
                  To compete on the Exchanges, CO-OPs should be ready to enroll members
                  by the expected launch date of October 1, 2013.35 Therefore, CO-OPs
                  must hire staff, obtain licensure, market their plans, and enroll consumers
                  within 18 to 24 months from when they received loan funding. All
                  CO-OPs reported these as major challenges.
                  CO-OPs also reported that they face uncertainties in the new insurance
                  marketplace. For example, CO-OPs told us that existing or new insurers
                  could create significant competition on the Exchanges. In addition,
                  CO-OPs expressed concern about identifying and contracting with the
                  right health care providers and vendors for key services.
                  Furthermore, CO-OPs reported that uncertainty surrounding the
                  implementation of the ACA posed challenges during the startup period.
                  For example, some States had not decided whether to operate an
                  Exchange. CO-OPs located in these States were uncertain about how to
                  plan for new Exchange requirements, such as benefit design, reporting,
                  and premium collection. Other CO-OPs reported that the Supreme Court’s
                  review of the ACA delayed hiring because potential employees worried
                  that the CO-OP program would be discontinued.
                  After CO-OPs complete their first year of operations, they will face
                  long-term challenges. For example, CO-OPs reported that designing
                  integrated care systems and reducing costs are important long-term
                  challenges, along with continued quality improvement, outreach, and
                  enrollment.


                  35
                     CMS anticipates that Exchanges will be ready to enroll members into plans beginning
                  in October 2013, with insurance coverage beginning January 1, 2014.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)         10
                  CMS’s oversight system involves frequent monitoring
                  and early intervention
                  CMS established a prospective oversight system to safeguard CO-OP
                  funding and ensure timely implementation of the program. CMS
                  described its oversight as an “early warning system” that identifies and
                  addresses problems before they undermine a CO-OP’s progress.
                  CMS account managers meet with CO-OPs two to four times
                  per month to monitor progress
                  CMS account managers are CO-OPs’ primary liaisons with the agency and
                  hold weekly or biweekly telephone meetings with CO-OPs to track their
                  progress.36 During these meetings, account managers and CO-OPs also
                  discuss challenges, delays, or other issues. Account managers document
                  the discussions and the CO-OPs’ progress toward their milestones. If a
                  CO-OP cannot reach a milestone on time, the account manager documents
                  this and determines whether the delay poses a minor, moderate, or major
                  risk to the CO-OP’s progress. Depending on the nature of the delay, CMS
                  will work with the CO-OP to reach the milestone, reschedule the
                  milestone to a later date, or delay the loan disbursement associated with
                  the milestone until the CO-OP reaches it.37
                  CMS delayed loan disbursements and issued one
                  noncompliance warning
                  CMS delayed portions of startup loans for five CO-OPs when they did not
                  reach important milestones on time. For example, CMS stepped in to
                  work with one CO-OP when the CO-OP could not resolve concerns from
                  its State department of insurance regarding the CO-OP’s timeline for
                  receiving State licensure. In three cases, CMS delayed funding for
                  CO-OPs that signed core contracts without CMS approval. CMS also
                  issued a noncompliance warning to a CO-OP because it did not submit
                  reporting information on time or in the required format. The CO-OP took
                  remedial action shortly thereafter.
                  CMS reviewed CO-OPs’ major contracts to ensure fair pricing
                  and prevent conflicts of interest
                  CMS approves major contracts that CO-OPs sign, including employment
                  contracts for executive officers and services such as claims processing.
                  CMS reported that this review process ensures that a CO-OP retains
                  outside services at costs that are consistent with its financial projections


                  36
                   CO-OPs also communicate with account managers as needed between these meetings.
                  37
                   CMS may take any of these actions in combination. Decisions related to milestones
                  may also involve senior CMS staff.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)     11
                  and do not present financial conflicts of interest. For example, one CO-
                  OP planned to contract with its sponsor to perform its main administrative
                  functions. Because the contract covered business operations, CMS closely
                  reviewed the contract to ensure that it was consistent with program
                  requirements and avoided conflicts of interest and to ensure that the CO-
                  OP’s budget accounted for the contract’s costs.




Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   12
                  CONCLUSION
                  Our review of the early implementation of the CO-OP program found that
                  CO-OPs have made progress and met 90 percent of their milestones
                  during the period of our review. All 18 CO-OPs that we reviewed planned
                  to have consumer-controlled governing boards, and 8 CO-OPs described
                  additional ways they plan to involve consumers. In addition, CO-OPs are
                  working toward program goals related to integrated care, improved health
                  care quality, and reduced costs. Also, CMS has monitored CO-OPs to
                  ensure they adhere to program requirements and meet their milestones.
                  Although CO-OPs appear to be making progress, at the time of our review
                  they were still hiring staff, obtaining licensure, and building necessary
                  infrastructure such as provider network arrangements and technology
                  systems. In addition, the extent to which any particular CO-OP can
                  achieve program goals and remain financially viable depends on a number
                  of unpredictable factors. These factors include the CO-OP’s State’s
                  Exchange operations, the number of people who enroll in the CO-OP and
                  their medical costs, and the way in which competing plans will affect the
                  CO-OP’s market share.




Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   13
                  APPENDIX A
                  List of CO-OP Program Loan Recipients as of
                  June 201238

                Loan Recipient Name                               Service Area                   Award Amount

          Compass Cooperative Health Network                           Arizona                     $93,313,233


          HealthyCT                                                  Connecticut                   $75,801,000

          Colorado Health Insurance
                                                                       Colorado                    $69,396,000
          Cooperative, Inc.

          CoOpportunity Health                                   Iowa and Nebraska                $112,612,100


          Kentucky Health Care Cooperative                            Kentucky                     $58,831,500


          Maine Community Health Options                                Maine                      $62,100,000

          Consumer’s Mutual Insurance of
                                                                       Michigan                    $71,534,300
          Michigan CO-OP

          Montana Health Cooperative                                   Montana                     $58,138,300


          Nevada Health CO-OP                                          Nevada                      $65,925,396


          Freelancers CO-OP of New Jersey                            New Jersey                   $107,213,300


          New Mexico Health Connections                              New Mexico                    $70,364,500

          Freelancers Health Service
                                                                      New York                    $174,445,000
          Corporation

          Freelancers CO-OP of Oregon                                   Oregon                     $59,487,500


          Oregon’s Health CO-OP                                         Oregon                     $56,656,900

          Consumers’ Choice Health Insurance
                                                                   South Carolina                  $87,578,208
          Company


                  38
                   Centers for Medicare & Medicaid Services (CMS), New Loan Program Helps Create
                  Customer-Driven Non-Profit Health Insurers. Accessed at www.healthcare.gov on
                  April 30, 2013.

Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)          14
          Loan Recipient Name                                      Service Area                     Award Amount

          Arches Community Health Care                                   Utah                           $85,400,303


          The Vermont Health CO-OP                                     Vermont                          $33,837,800

          Common Ground Healthcare
                                                                      Wisconsin                         $56,416,600
          Cooperative
          Note: CMS began accepting loan applications in October 2011 and announced loan awards in February, March, May,
          June, and July 2012.




Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)                 15
                  APPENDIX B
                  List of Additional CO-OPs Funded After June 2012

                Loan Recipient Name                                   Service Area                         Award Amount

          Land of Lincoln Health (incorporated
          as Metropolitan Chicago Healthcare                                Illinois                        $160,154,812
          Council CO-OP)

          Louisiana Health Cooperative, Inc.                              Louisiana                          $65,040,660


          Evergreen Health Cooperative, Inc.                              Maryland                           $65,450,900


          Minutemen Health, Inc.                                       Massachusetts                         $88,498,080

          Coordinated Health Plans of Ohio,
                                                                             Ohio                           $129,225,604
          Inc.

          Community Health Alliance Mutual
                                                                         Tennessee                           $73,306,700
          Insurance Company

          Note: The six CO-OPs in this table are funded by CMS but were not included in this evaluation.




Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)                    16
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Joyce Greenleaf, Regional
                  Inspector General for Evaluation and Inspections in the Boston regional
                  office, and Russell Hereford and Kenneth Price, Deputy Regional
                  Inspectors General.
                  Melissa Hafner served as the team leader for this study, and Amy Glynn
                  served as the analyst. Central office staff who provided support include
                  Heather Barton, Meghan Kearns, and Christine Moritz.




Early Implementation of the Consumer Operated and Oriented Plan Loan Program (OEI-01-12-00290)   17
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
